AQUALAW

CHRISTOPHER D. POMEROY PH: 804.716.9021
CHRIS@AQUALAW.COM Fax: 804.716.9022

November 4, 2019

By UPS Ground Service

The Honorable Scott S. Harris

Clerk of the Court

Supreme Court of the United States
One First Street, NE

Washington, DC 20543

Re: © COUNTY COMMISSIONERS OF CARROLL COUNTY, MARYLAND, PETITIONER,
V. MARYLAND DEPARTMENT OF THE ENVIRONMENT, RESPONDENT

Dear Mr. Harris:

Please find the enclosed documents for filing in the above-captioned matter.
Included in this submission are (1) 40 booklet-format copies the Petition for a Writ of
Certiorari; (2) one unbound copy of the Petition for a Writ of Certiorari; (3) a check for
the filing fee in the amount of $300; (4) a Certificate of Compliance; and (5) a
Certificate of Service.

Additionally, as counsel of record for the Petitioner, County Commissioners of
Carroll County, Maryland, | am writing to grant blanket consent for the filing of amicus
curiae briefs by any person or entity, in support of either party or neither party.

Very truly yours,

Hedy b

Christopher D. Pomeroy

Copy to:
Kunle Adeyemo, Esquire
Adam D. Snyder, Esquire
Counsel for Respondent,
Maryland Department of the Environment

AquaLaw PLC - 6 South 5" Street - Richmond, Virginia - 23219
www.Aqualaw.com
